OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/INDONESIA’S
TSUNAMI RECOVERY AND
RECONSTRUCTION PROGRAM
ACTIVITIES IMPLEMENTED BY
DEVELOPMENT ALTERNATIVES,
INC.
AUDIT REPORT NO. 5-497-06-009-P
September 15, 2006




MANILA, PHILIPPINES
dra




Office of Inspector General



September 15, 2006

MEMORANDUM

TO:                  USAID/Indonesia Director, William M. Frej

FROM:                Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:             Audit of USAID/Indonesia’s Tsunami Recovery and Reconstruction Program
                     Activities Implemented by Development Alternatives, Inc.
                     (Audit Report No. 5-497-06-009-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments (without attachments)
in Appendix II.

This report contains two recommendations to improve USAID/Indonesia’s recording of tsunami
recovery and reconstruction expenditures. Based on your comments, we consider that
management decisions have been reached on both recommendations. Please coordinate final
actions on these recommendations with the Audit, Performance and Compliance Division of
USAID’s Office of the Chief Financial Officer.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Boulevard, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

Were selected USAID/Indonesia tsunami recovery and
reconstruction program activities implemented by Development
Alternatives, Inc. completed or progressing as planned?

   Recording of Tsunami Expenditures
   Needs Improvement...................................................................................................... 6

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13
SUMMARY OF RESULTS
RIG/Manila audited selected USAID/Indonesia tsunami recovery and reconstruction
program activities implemented by Development Alternatives, Inc. (DAI) to determine
whether the selected activities were completed or progressing as planned.
(See page 2.)

The selected USAID/Indonesia tsunami recovery and reconstruction program activities
implemented by DAI under its Support for Peaceful Democratization project were
completed as planned and the selected activities under its Environmental Services
Program (ESP) were progressing. Although the ESP activities were progressing, we
could not assess whether they were progressing as planned toward yearly targets
because the year had not ended and DAI had not set interim targets against which
progress could be measured. (See page 3.)

In conducting our audit, however, we noted that USAID/Indonesia needed to improve its
recording of expenditures for tsunami activities. (See page 6.)

This report made two recommendations intended to improve USAID/Indonesia’s
recording of tsunami recovery and reconstruction expenditures. (See page 9.) Based
on USAID/Indonesia’s comments, we consider that management decisions have been
reached on both recommendations. (See page 10.) In addition, the Mission requested
that we edit reported expenditures included in the report. We did not change the
reported expenditures included in the report. However, we made the revisions to the
report to further clarify the basis of these reported expenditures. USAID/Indonesia’s
comments are included as Appendix II to this report. (See page 13.)




                                                                                   1
BACKGROUND
On December 26, 2004, the largest earthquake to strike South and Southeast Asia since
1964 caused a devastating tsunami that killed several hundred thousand people and
displaced about one million others. Additionally, whole communities, roads, and other
infrastructure were obliterated. Of the countries affected, Indonesia was hit hardest.

On May 11, 2005, President Bush signed into law the “Emergency Supplemental
Appropriations Act for Defense, the Global War on Terror, and Tsunami Relief, 2005”
which provided funding for a number of purposes including assisting victims of the
tsunami. Of the $656 million appropriated to USAID, about $400 million was
provided to USAID/Indonesia. In turn, USAID/Indonesia used its funding to establish
its Tsunami Recovery and Reconstruction Program to assist Indonesian victims of the
tsunami.

In some cases, USAID/Indonesia used existing contractors to implement its Tsunami
Recovery and Reconstruction Program. For example, the Mission added a total of
$22.4 million in tsunami funding to its two contracts with Development Alternatives, Inc.
(DAI). Under these contracts, DAI was already implementing two large projects: the
Support for Peaceful Democratization (SPD) project and the Environmental Services
Program (ESP). Through its SPD project, DAI was to use $18.2 million in tsunami funding
to award small grants to indigenous and international organizations for cash-for-work and
livelihood activities in the tsunami-affected areas of the country. Through its ESP, DAI was
to use $4.2 million in tsunami funding to improve water quality and delivery in villages
whose water systems had been wiped out by the tsunami.

As of December 31, 2005, USAID/Indonesia records showed that it had obligated
$22.4 million and recorded disbursements of approximately $5.5 million for the tsunami
activities that DAI was implementing on behalf of the Mission. 1 Under the SPD project,
DAI began tsunami activities in December 2004 and it planned to complete them by the
end of September 2007. Under the ESP, DAI began tsunami activities in February 2005
and it planned to complete them by the end of September 2009.

AUDIT OBJECTIVE

The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2006 annual audit plan to answer the following question:

•    Were selected USAID/Indonesia tsunami recovery and reconstruction program
     activities implemented by Development Alternatives, Inc. completed or progressing
     as planned?

Appendix I contains a discussion of the audit’s scope and methodology.




1
    See the discussion at page 6 about the accuracy of the reported disbursements.


                                                                                          2
AUDIT FINDINGS
Selected USAID/Indonesia tsunami recovery and reconstruction program activities
implemented by Development Alternatives, Inc. (DAI) under its Support for Peaceful
Democratization (SPD) project were completed as planned and selected activities under
its Environmental Services Program (ESP) were progressing. Although the ESP activities
were progressing, we could not assess whether they were progressing as planned
toward yearly targets because the year had not ended and DAI had not set interim
targets against which progress could be measured.

USAID/Indonesia provided $22.4 million to DAI to implement tsunami recovery and
reconstruction activities through the SPD project and the ESP. USAID/Indonesia
obligated $14.2 million of the $22.4 million into the DAI contracts in September and October
2005. Under the SPD project, we reviewed 5 of 39 activities for which USAID/Indonesia
had recorded reimbursements to DAI against the correct tsunami appropriation
account. 2 Under the ESP, we reviewed 4 of 11 activities that were to be completed
during the second year of the contract. Accomplishments under the two DAI projects are
presented below.

Support for Peaceful Democratization Project - USAID/Indonesia modified DAI’s
existing SPD project contract to add tsunami recovery and reconstruction activities. For
these added tsunami activities, USAID/Indonesia increased the contract’s funding by
$18.2 million and provided $10 million of the increase in October 2005. According to its
reports, DAI had expended $7.7 million for tsunami activities as of December 31, 2005.
According to the Mission’s financial records, however, the total expenditures amounted
to only $5.4 million. (This discrepancy in expenditures is discussed at page 6.)

DAI used grantees, mostly nongovernmental organizations, to carry out its tsunami
activities. Initial grants focused on short-term relief activities, mainly cash-for-work
programs to provide employment, clean up villages and agricultural land, and rehabilitate
small infrastructure (e.g., schools, markets). Subsequent grants were awarded to carry
out a longer-term community-based recovery initiative. Generally, these grants were of
short duration—usually six months or less.

According to a USAID/Indonesia official, the SPD project was designed to be highly
flexible to respond to events as they occurred. This allowed DAI to immediately react to
the tsunami disaster and USAID to expeditiously assist local governments. Under this
flexible design, DAI was not required to have detailed work plans for the project.
Instead, DAI established planned outputs for each grant it awarded. The Mission’s
financial records included expenditures for 39 activities (grants) implemented. During
our fieldwork, we selected the following five activities to determine whether they were
completed or progressing as planned.

2
   USAID/Indonesia did not record all of its reimbursements to DAI against the correct tsunami
appropriation account. Consequently, we limited the scope of our testing of the SPD project to
those activities for which the Mission did record reimbursements to DAI against the correct
tsunami appropriation account. (This recording issue is discussed at page 6.)




                                                                                            3
•   A $96,682 grant to Pemerintah Mahasiswa with planned outputs to rehabilitate
    several dormitories at Syiah Kuala University in Banda Aceh and, in doing so,
    employ 325 Indonesians. The grantee satisfactorily demonstrated that the work was
    completed and 325 people were assisted under this cash-for-work grant.

•   A $93,822 grant to Mitra Sejati Perempuan Indonesia with planned outputs to
    provide 210 women with material support to re-start economic activities. The
    grantee satisfactorily demonstrated that it had assisted the planned number of
    beneficiaries. Furthermore, our testing at several locations demonstrated that the
    planned material support was given and used, e.g., sewing machines and cooking
    equipment provided to a woman’s cooperative, whose members then generated
    income by producing and selling clothing and food.

•   An $80,734 grant to Yayasan Flower Aceh with planned outputs to provide
    153 families in the Kreung Kala village with kitchen kits and 150 women farmers in
    three villages with agricultural materials. The grantee satisfactorily demonstrated
    that it purchased the supplies. Furthermore our testing at selected locations
    demonstrated that the families received and were using the supplies.

•   A $250,000 grant to Mercy Corps with planned outputs to employ 2,369 tsunami
    survivors in a cash-for-work program to clean up 12 villages in Aceh province. Our
    observations and document reviews at one of the villages showed that the grantee
    satisfactorily demonstrated completion of this work.

•   A $72,099 grant to Yayasan Peduli Hak Asasi Manusia, a local human-rights group,
    whose defined output was to monitor USAID-funded cash-for-work grants, including
    ensuring that USAID monies were accounted for, workers were paid in full, and the
    rehabilitation work was performed.         Our visit to the grantee’s headquarters
    satisfactorily demonstrated that it monitored the grants.

The Environmental Services Program - USAID/Indonesia modified DAI’s existing ESP
contract to add tsunami recovery and reconstruction activities. For these added tsunami
activities, USAID/Indonesia increased the contract’s funding by $200,000 and $4 million
under two contract modifications effective March 29, 2005, and September 30, 2005,
respectively. According to its reports, DAI had expended $689,567 for tsunami activities
as of December 31, 2005. According to the Mission’s financial records, however, the
total expenditures amounted to only $73,487. (This discrepancy in expenditures is
discussed at page 6.)

DAI was to use the $200,000 to conduct a needs assessment focusing on the
rehabilitation and future development of key environmental services in Aceh Province.
USAID/Indonesia issued DAI a letter to proceed prior to modifying the contract, which
allowed DAI to complete and submit the assessment to the Mission by March 31, 2005.

For the $4 million it provided to DAI, USAID/Indonesia identified planned outputs under
four technical components: watershed management and biodiversity conservation,
environmental services delivery, environmental services finance, and environmentally
sustainable design and implementation. DAI established annual targets for the planned
outputs through fiscal year 2009, the projected end of the ESP.




                                                                                      4
At the time of our audit fieldwork in January 2006, four months had elapsed since
USAID/Indonesia awarded the bulk of the funds for tsunami activities in Aceh province;
consequently, the project was just getting started. The annual targets established were
not yet due, and there were no interim targets available to assess progress conclusively.
 Nonetheless, DAI had commenced work and a number of planned outputs were in
progress. From the four selected activities, we verified the progress of the following
outputs, which were to be completed during the period from October 1, 2005, through
September 30, 2006, the second year of contract performance:

•   DAI’s planned output under the watershed management and biodiversity
    conservation component was to improve watershed functions at four communities.
    Within the first four months of the second year, progress had occurred. For example,
    the ESP had completed several studies, maps and surveys to identify specific
    community-based rehabilitation activities for improving the watershed functions of
    various communities.

•   One of the planned outputs under the environmental services delivery component
    was to increase revenues by 20 percent at one water utility agency by improving its
    technical and financial operations. Within the first four months of the second year,
    progress had occurred. For example, DAI provided $20,000 in laboratory equipment
    to two water treatment plants for testing water quality, trained 14 participants on the
    use of the equipment, and provided three computers to the financial department of
    one water utility agency.

•   Another planned output under the environmental services delivery component was to
    provide five communities with improved water quality, sanitation, and solid waste
    practices. Within the first four months of the second year, progress had occurred.
    For example, the ESP improved water delivery at three village health facilities by
    providing a pump, reservoir, water tank, deep well, shallow well, drainage ditches,
    holding tank, septic tank, leaching field and other water-related equipment. The ESP
    also initiated assessments for return communities (areas resettled by Indonesians
    who had been displaced by the tsunami) targeted to receive the improved services.




                                                        OIG photograph of a USAID-
                                                        funded pump system provided
                                                        to a village health clinic in
                                                        Desa Mibo, Banda Aceh
                                                        District   (Aceh     Province,
                                                        Indonesia, February 2006)




•   One planned output under the environmentally sustainable design and
    implementation component was to develop a forum/network to address common


                                                                                         5
   implementation issues and serve as a clearing house of best practices to mitigate
   any adverse environmental impact of post-tsunami reconstruction activities. Within
   the first four months of the second year, progress had occurred. For example, DAI
   held meetings with various organizations to establish the forum/network.




                                                         OIG photograph of a USAID-
                                                         supplied water tank used to
                                                         improve the water supply to a
                                                         village health clinic in Desa
                                                         Nusa, Aceh Besar District
                                                         (Aceh Province, Indonesia,
                                                         February 2006)




In determining whether selected USAID/Indonesia tsunami recovery and reconstruction
program activities implemented by DAI were completed or progressing as planned, we
noted that USAID/Indonesia needed to improve its recording of expenditures for tsunami
activities. This issue is further addressed below.

Recording of Tsunami Expenditures
Needs Improvement
 Summary: Legislation providing funding for assistance to tsunami-affected countries
 required that the funding be accounted for on a project-by-project basis, and federal
 guidance required USAID to include tsunami expenditure data in its financial records
 using agreed upon line items. However, USAID/Indonesia’s accounting records did
 not separately capture all tsunami expenditures incurred by DAI. This condition
 occurred because in some cases contract modifications authorizing DAI’s tsunami
 activities did not contain clear provisions on the need to separately account for
 tsunami expenditures or, when such provisions were clear, they were not effectively
 enforced by USAID/Indonesia. As a result, USAID/Indonesia under-recorded the
 tsunami expenditures incurred by DAI by $2.9 million in its own financial records, and
 in its input to a report required by the U.S. Congress, USAID/Indonesia over-reported
 the tsunami expenditures incurred by DAI by $3.7 million based on its own financial
 records and by $793 thousand based on DAI’s reports.

To provide accurate reporting to Congress, it is necessary for tsunami expenditures to
be accounted for separately from general project expenditures. Section 4102 of the
“Emergency Supplemental Appropriations Act for Defense, the Global War on Terror,
and Tsunami Relief, 2005” (Tsunami Supplemental) required the Secretary of State to
report to Congress every six months on a project-by-project basis, the expenditure of
funds appropriated under this act until all funds have been fully expended. In
October 2005, the U.S. Department of State sent a cable to USAID and other federal



                                                                                          6
agencies involved in tsunami relief providing guidance on how the agencies should
submit their input to the required semiannual Section 4102 report. For financial
information, the cable required information on obligations and disbursements by
implementing agreements. Additionally for USAID, the cable stated that the data should
be entered into the Agency’s financial system using previously agreed upon line items.

However, USAID/Indonesia did not separately capture all tsunami expenditures incurred
by DAI so that it could report accurately to Congress its use of the funds provided by the
Tsunami Supplemental. As shown in Table 1 at page 8, the Mission’s accounting
records showed that approximately $5.5 million had been expended under the Tsunami
Supplemental at December 31, 2005. The Mission’s recorded expenditures were
$2.9 million short of the $8.4 million that DAI reported it had expended under the
Tsunami Supplemental—an under-recording of 35 percent.

USAID/Indonesia’s ability to fully capture expenditures under the Tsunami Supplemental
was complicated by use of interim funding sources and the fact that DAI was already
carrying out other activities in tsunami-affected areas of Indonesia, particularly Aceh
province. Nonetheless, the Mission could have done more to ensure that its accounting
records more accurately reflected the financial status of the Tsunami Supplemental
funds it received and awarded to DAI.

USAID/Indonesia used interim funding sources to immediately assist Indonesian victims
of the December 2004 tsunami. The Mission needed to use these other sources
because the President did not sign the Tsunami Supplemental until May 11, 2005. In
December 2004 and January 2005, USAID/Indonesia received $9.2 million from
USAID’s Office of Foreign Disaster Assistance (OFDA) and, in February 2005, it
received $10 million from USAID’s Asia and Near East (ANE) Bureau. Additionally, the
Mission used $3.3 million of its own funding for urgently needed tsunami activities—
funding that was originally intended for conflict mitigation in Aceh province.

To provide the assistance quickly, the Mission decided to utilize current partners as
much as possible. For example, through contract modifications, the Mission allocated
$8 million ($5 million in OFDA funding and $3 million in ANE funding) to DAI’s existing
SPD project and $200,000 in ANE funding to DAI’s existing ESP. (These interim funding
sources were subsequently reimbursed from the Tsunami Supplemental so that their
expenditures became Tsunami Supplemental expenditures.) In September and October
2005, also through contract modifications, the Mission awarded $10.2 million and
$4 million in funding directly from the Tsunami Supplemental to the SPD project and the
ESP, respectively.

Although each of the interim funding sources and the Tsunami Supplemental had
specific appropriation numbers and budget plan codes, DAI did not consistently account
and bill for all tsunami expenditures by separate funding source on separate line items.
For example, under the ESP, DAI did not separately report in its vouchers expenditures
amounting to $281 thousand by funding source for tsunami activities covering the period
March 2005 through September 2005. In October 2005, DAI began submitting vouchers
noting the proper classification for the costs by funding source. Under the SPD project,
DAI incurred $7.7 million on tsunami activities through December 2005, but separately
reported in its vouchers expenditures only for OFDA grants amounting to $4.5 million.
Of the $7.7 million tsunami expenditures, the Mission recorded a total of $5.4 million
against the tsunami appropriations as of December 31, 2005.


                                                                                        7
A contributor to the problem was unclear language in the contract modifications that
gave DAI funds for tsunami activities from the interim funding sources and the Tsunami
Supplemental. Generally, the language stated that the Mission needed to account for
the funds separately, but the language was not always clear. For example, Modification
No. 10 to the SPD project, which added $10 million from the Tsunami Supplemental for
tsunami activities, contained the following language: “This additional supplemental
funding is earmark [sic] for Aceh and should be recorded and tracked separately”. This
language did not clearly state that the funds should be tracked and reported separately
even from those funds supporting non-tsunami activities in Aceh, nor did it mention a
requirement to “report” separately. Most other modifications did mention a requirement
to report separately.

A second contributor to the problem was that USAID/Indonesia did not enforce the
requirement in the ESP contract modifications for the separate reporting of tsunami
expenditures. In a number of instances, the Mission paid DAI vouchers that did not
separately report tsunami expenditures. For example, DAI did not separately report in
its vouchers the expenditures for work performed on the tsunami activities under the
ESP from March 2005 through September 2005. In such cases, Mission staff explained
that they would first allocate the expenditures to appropriations that were funding DAI’s
older, non-tsunami activities. In other cases where DAI did report the tsunami
expenditures separately, the Mission allocated the expenditures between tsunami and
non-tsunami appropriations differently from how DAI had reported them in its vouchers.

One consequence of USAID/Indonesia not separately capturing all Tsunami
Supplemental expenditures is that the amounts it reported to USAID/Washington for
inclusion in the Section 4102 Report to the Congress on tsunami expenditures differed
significantly from both the Mission’s financial records and DAI’s reports. Table 1 below
shows these differences for the two DAI projects audited. In total, the $9.2 million that
the Mission reported as tsunami expenditures for the Section 4102 Report to the
Congress exceeded the amounts in its own financial records by $3.7 million and the
amounts in DAI’s reports by $793 thousand. Staff from the Mission’s program office,
who prepare the Mission’s input to the Section 4102 report, explained that they decided
to estimate expenditures in cases where they knew activities were taking place but
where the Mission’s accounting records did not show expenditures under the related
appropriations. However, as noted earlier, the guidance from the U.S. Department of
State made it clear that the data should be in USAID’s financial system.

               Table 1: Comparative Tsunami Supplemental Expenditures
                             (As of December 31, 2005) 3

                                                    Reported Expenditures
                     Obligated            Per 4102      Per Mission         Per DAI
     Project          Amount               Report         Records           Reports
     SPD             $18,200,000           $8,521,433      $5,412,427        $7,738,827
     ESP               4,200,000              700,000          73,487           689,567
     Totals          $22,400,000           $9,221,433      $5,485,914        $8,428,394

Since USAID/Indonesia used other existing partners to carry out tsunami activities, this
tsunami expenditure recording issue could extend beyond the two DAI projects.
3
    The amounts in this table were not audited.


                                                                                       8
Consequently, to ensure that all Tsunami Supplemental expenditures are separately
captured and reported as intended by the Congress, we are making the following
recommendations:

   Recommendation No. 1: We recommend that USAID/Indonesia include in all its
   contracts, grants and cooperative agreements that have funding for tsunami
   recovery and reconstruction activities clear, specific language that requires the
   separate tracking and recording of tsunami expenditures and the separate
   reporting of those expenditures in the vouchers that implementing partners
   submit to USAID for payment.

   Recommendation No. 2: We recommend that USAID/Indonesia develop and
   implement procedures to ensure that all past and future Tsunami Supplemental
   expenditures incurred by implementing partners are charged to the correct
   tsunami appropriations in the Mission’s accounting records.




                                                                                       9
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Indonesia provided written comments that are
included (without attachments) in Appendix II to this report. USAID/Indonesia accepted
the report’s two recommendations. The Mission’s comments and our evaluation of those
comments are summarized below.

In response to Recommendation No. 1 USAID/Indonesia stated that it amended its
contract with Development Alternatives, Inc. (DAI) under the Support for Peaceful
Democratization (SPD) contract requiring the contractor to account and bill for all
expenditures by separate funding source on separate line items.             In addition
USAID/Indonesia stated that the Contracting Officer reviewed other implementing
agreements funded with tsunami assistance funds and modified the implementing
documents to include language requiring expenditures to be identified and reported by
funding source. Based on the actions the Mission stated it had taken, we consider that a
management decision has been reached on Recommendation No. 1.

In response to Recommendation No. 2 USAID/Indonesia stated that in addition to the
correction taken in response to Recommendation No. 1, it has also been working with
DAI to reconcile the cumulative expenditures for its SPD project by funding source. This
process has been ongoing since mid-February 2006. Based on the actions the
Mission’s stated it had taken, we consider that a management decision has been
reached on Recommendation No. 2.

USAID/Indonesia will need to coordinate final actions on both recommendations with
USAID’s Audit, Performance and Compliance Division of USAID’s Office of the Chief
Financial Officer.

In its written comments, USAID/Indonesia did not agree with the amounts cited in the
draft report as expended by DAI and recorded in USAID/Indonesia’s financial records.
We reviewed the Mission’s comments and supporting documentation in detail. We did
not change the reported expenditures included in the report. However, we made
revisions to the final report to further clarify the basis of these reported expenditures. In
addition, we made minor editorial changes to the final report based on the Mission’s
comments.




                                                                                          10
                                                                                APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine whether selected USAID/Indonesia tsunami recovery and reconstruction
program activities implemented by Development Alternatives, Inc. (DAI) were completed
or progressing as planned.

The audit covered the tsunami recovery and reconstruction program activities DAI was
implementing on behalf of USAID/Indonesia during the period from January 13, 2005, to
December 31, 2005. As of December 31, 2005, Mission records showed that it had
obligated $22.4 million and recorded disbursements of $5.5 million to DAI for those
activities. However, the Mission’s 4102 Report and DAI’s reports showed expenditures
of $9.2 million and $8.4 million, respectively. Audit fieldwork was conducted from
January 23, 2006, through February 16, 2006, at USAID/Indonesia and the offices of
DAI, both in Jakarta, Indonesia. Additionally, we made site visits to the Banda Aceh and
Aceh Besar districts of Aceh Province, where DAI and its numerous grantees were
implementing tsunami activities.

During the period audited, DAI was carrying out tsunami activities under two contracts
with USAID/Indonesia: the Support for Peaceful Democratization (SPD) project and the
Environmental Services Program (ESP). Through its SPD project, DAI was to use
$18.2 million in tsunami funding to award small grants to indigenous and international
organizations for cash-for-work and livelihood activities in the tsunami-affected areas of the
country. Through its ESP, DAI was to use $4.2 million in tsunami funding to improve water
quality and delivery in villages whose water systems had been wiped out by the tsunami.

As explained on page 6 of this report, the Mission did not record all disbursements to
DAI for tsunami activities against the correct tsunami appropriation account.
Consequently, our testing under the SPD project was limited in scope to 39 activities
(grants) for which the Mission did record disbursements for tsunami activities against the
correct tsunami appropriation account. These 39 grants involved $4.5 million of the
$7.7 million in SPD tsunami expenditures in DAI’s reports at December 31, 2005. We
judgmentally selected and tested 5 of the 39 grants, which had expenditures totaling to
about $600 thousand. For the ESP, we judgmentally selected and tested 4 of
11 activities in progress during the second year of contract performance.

As part of the audit, we assessed the significant internal controls used by
USAID/Indonesia to ensure that DAI’s tsunami activities were completed or progressing
as planned. The assessment included controls related to whether the Mission
(1) conducted and documented site visits to evaluate progress, (2) required and
approved DAI implementation plans, (3) required and approved DAI progress reports,
and (4) ensured accurate recording and reporting of tsunami expenditures. We also
reviewed the Mission’s annual self-assessment of internal controls in accordance with
the Federal Managers’ Financial Integrity Act. Finally, we obtained and reviewed prior
audit findings related to the Mission’s tsunami recovery and reconstruction program.



                                                                                           11
                                                                            APPENDIX I



Methodology
To answer the audit objective, we interviewed officials and staff from USAID/Indonesia,
DAI, and DAI grantees. Additionally, we interviewed local Indonesian government
officials and beneficiaries of DAI’s tsunami activities. We also reviewed and analyzed
documentation relevant to the establishment and achievement of outputs and milestones
for DAI’s tsunami recovery and reconstruction program activities under the SPD project
and the ESP. The documentation reviewed included:

•   The legislation providing funding to assist victims of the December 26, 2004 tsunami.

•   The SPD and ESP contracts and modifications, as well as grant agreements
    awarded by DAI under its SPD project.

•   Implementation plans, progress reports, site visit and other monitoring reports, and
    financial reports and records.

For the SPD project and the ESP, we made site visits to five and seven locations,
respectively, where DAI or its grantees were operating to assess whether their tsunami
activities were completed or progressing as planned.

We did not establish materiality thresholds for the audit objective.




                                                                                      12
                                                                             APPENDIX II



MANAGEMENT COMMENTS


                                                             September 1, 2006

MEMORANDUM


TO:              Catherine Trujillo, Inspector General, RIG/Manila

FROM:            William M. Frej, Mission Director, USAID/Indonesia /s/

SUBJECT:         Draft Report on the Audit of USAID/Indonesia’s Tsunami Recovery and
                 Reconstruction Program Activities Implemented by Development
                 Alternatives, Inc.
                 Audit Report No. 5-497-06-00X-P


As requested in your August 4, 2006 e-mail message, following are the Mission’s
comments and suggested changes to the draft audit report. We would like the auditors
to consider incorporating these comments into the final report.

On page 2 of the draft audit report, in the second paragraph, it states that DAI received
$14 million of the $22.4 million in September and October 2005. We recommend that
this be changed to “USAID obligated $14.2 million into the DAI contracts in September
2005 and October 2005.” The chart in Attachment 1 shows the obligations made into
the contract for DAI/SPD with $10.2 million obligated into the contract in September and
October 2005. As far as DAI/ESP, $4 million was obligated into the contract on
September 30, 2005.

Also on page 2 in the third paragraph, it states that DAI had expended $7.7 million for its
tsunami activities as of December 31, 2005. Per the vouchers submitted by DAI for
ESP, the cumulative expenditures through December 31, 2005 for tsunami activities
were $536,000.01 and through April 30, 2006, the amount was $1,232,448.06. DAI/SPD
reported cumulative expenditures through December 31, 2005 of $4,613,178.22. As is
shown in Attachment 1, the cumulative expenditures for DAI/SPD through April 30, 2006
for tsunami activities total approximately $5.8 million. So the total expended figure of
$7.7 million as of December 31, 2005 shown in the audit report is well in excess of the
cumulative expenditures reported to USAID/Indonesia by DAI through December 31,
2005 and even above the cumulative expenditures reported as of April 30, 2006.

On page 4, under ESP, DAI has reported cumulative expenditures through December
2005 of $536,000.01 under four vouchers covering the period October through


                                                                                         13
                                                                            APPENDIX II


December 2005, dated November 11, 2005 through January 26, 2006, and the Mission
has recorded the same amount in the accounting records. Amendment number 2 to
DAI/ESP stated “The Contractor is reminded that the additional funding in the amount of
$7,018,000 (including $1 million CSH, $2.018 million Biodiversity, and $4 million tsunami
supplemental) is provided for the post tsunami program and therefore this additional
fund must be tracked and recorded separately.” Attachment number 2 shows the fund
cites attached to this amendment and also includes a copy of amendment number 1.
Attachment 3 shows the four vouchers with the correct fund cites used by the Mission.
There is no discrepancy between what was reported by DAI for ESP and recorded by
USAID. The audit report shows $689,567 and states there is a discrepancy.

On page 6, we recommend that you delete the sentence “As a result, USAID/Indonesia
under-recorded and under-reported tsunami expenditures by as much as $3 million for
DAI” as well as the last paragraph on the page beginning with “However” as this data is
not based on the financial vouchers received from DAI. The cumulative expenditures
through December 31, 2005, recorded for DAI/ESP is the same for both USAID and DAI.
The cumulative expenditures through December 31, 2005, recorded by USAID for
DAI/SPD is $5,765,193.82 while DAI reported $4,628,963.24 so USAID over reported
cumulative expenditures related to the tsunami funds by $1,136,230.58. It should be
noted that the amounts charged to the DAI contract by USAID did not exceed the total
as reported by DAI. For example, as is shown in Attachment 4, the total expenditures
are $772,266.75. This amount was charged to the DAI contract; however, the tsunami
related expenditures reported by DAI were $49,546.26 and those recorded by USAID
were $418,741.75 for the same period.

We suggest that you rewrite the narrative on page 7 and 8 to reflect that the accounting
records for DAI/ESP accurately reflected the expenditures reported by DAI through the
December 31, 2005 period according to the appropriate appropriations as shown in
amendments number 1 and 2 to the DAI/ESP contract.

The chart shown on page 8 also needs to be corrected to include the correct
expenditures. For ESP, the Mission and DAI records should show $536,000.01. For
SPD, the Mission records should show $5,765,193.82 with DAI reporting $4,628,963.24.
It appears that the figures used on the 4102 were higher than actual expenditures as the
figures were based on estimated expenditures. The totals per Mission records would be
$6,301,193.83 and the total per DAI records would be $5,164,963.25.

Recommendation No. 1: We recommend that USAID/Indonesia take immediate steps
to include in all its contracts, grants and cooperative agreements that have funding for
tsunami recovery and reconstruction activities clear, specific language that requires the
separate tracking and recording of tsunami expenditures and the separate reporting of
those expenditures in the vouchers that implementing partners submit to USAID for
payment.

Response: USAID/Indonesia agrees with this recommendation in regards to the
DAI/SPD contract. Though several amendments to the DAI/SPD contract stated funds
should be recorded and tracked separately, the contractor did not report expenditures by
all the funding sources separately on the vouchers as this was not specifically required
by the contract amendments. DAI/SPD did record and track expenditures in their TAMIS
database against all the funding sources.



                                                                                       14
                                                                              APPENDIX II


The contract was further amended on March 10, 2006, requiring that the contractor
account for all expenditures funded by regular SPD funds, Aceh tsunami relief and
reconstruction efforts, Aceh Peace Funds, and private donations on separate line items
and that such expenditures are required to be identified and reported by line item, in all
vouchers submitted for payment.

The DAI/ESP contract amendment number 2 is attached for reference. This amendment,
dated September 30, 2005, requests that contractor report on the funds separately.
Beginning with their October 2005 voucher, DAI reported on expenditures by the funding
sources separately as is shown in the attached vouchers covering the period October
through December 2005.

The USAID/Indonesia Contracting Officers have reviewed other implementing
agreements funded with tsunami assistance funds and have modified these
implementing documents to include the language that expenditures are required to be
identified and reported by funding source.

Mission Recommendation: Based on the actions undertaken, we recommend
RIG/A/Manila determine that a mission management decision has been reached upon
the issuance of this audit report recommendation. A closure request will be submitted to
the Office of the Chief Financial Officer, Audit Performance and Compliance Division
(M/CFO/APC) with supporting documents to substantiate the request for closure of this
audit recommendation.

Recommendation No. 2: We recommend that USAID/Indonesia develop and
implement procedures to ensure that all past and future Tsunami Supplemental
expenditures as incurred by implementing partners are charged to the correct tsunami
appropriations in the Mission’s accounting records.

Response: USAID/Indonesia agrees with this recommendation in regards to the
expenditures under DAI/SPD. As stated previously, DAI/ESP reports their expenditures
by funding source. USAID and DAI records for ESP are in agreement.

The DAI/SPD contract was amended in March 2006 to required DAI to report
expenditures by funding source on their vouchers. USAID has been working with DAI
since mid-February 2006 to reconcile cumulative expenditures for SPD by funding
source. See Attachment 1 for the latest correspondence in regards to this effort.

Mission Recommendation: Based on the actions undertaken, we recommend
RIG/A/Manila determine that a mission management decision has been reached upon
the issuance of this audit report recommendation. A closure request will be submitted to
the Office of the Chief Financial Officer, Audit Performance and Compliance Division
with supporting documents to substantiate the request for closure of this audit
recommendation upon a final reconciliation with DAI for the SPD contract expenditures.

In summary, the mission accepts the two recommendations reported by the RIG/Manila
audit team. We thank you for the opportunity to allow the mission to provide comments
on the draft audit report.




                                                                                         15
U.S. Agency for International Development
       Office of Inspector General
     1300 Pennsylvania Avenue, N.W.
         Washington, D.C. 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
             www.usaid.gov
